20-6234
No.

IN THE
SUPREME COURT OF THE UNITED STATES
Karon Movnihan - PETITIONER
vs.

i

The West Chester Area School District - RESPONDENT
ON PETITION FOR A WRIT OF CERTIORARI TO
United States Court of Appeals for the Third Circuit
PETITION FOR WRIT OF CERTIORARI
Karen Movnihan
607 W. Rosedale Ave.
West Chester. PA 19382
610-692-6226

O

QUESTIONS) PRESENTED
Did the United States District Court of Appeals for the Third Circuit disregard this
Honorable Court’s Opinion on the Individuals with Disabilities Education Act, as that Opinion
was defined at Endrew F.ex rel. Joseph F. v. Douglas Cty. Sch. Dist. REA - 137 S. Ct. L. Ed.
2d 335 (2017) when ruling against Petitioner and for Respondent?
Suggested Answer:

Yes

LIST OF PARTIES
[ x ] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows-

RELATED CASES
United States District Court for the Eastern District of Pennsylvania! 2-18-cv-04388
United States District Court for the Eastern District of Pennsylvania! Civil Action
Number 19-648

TABLE OF CONTENTS
OPINIONS BELOW
JURISDICTION.
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION
INDEX TO APPENDICES
APPENDIX A - Judgment - United States Court of Appeals for the Third Circuit
APPENDIX B - Letter from Petitioner to the United States Court of Appeals for the
Third Circuit
APPENDIX C - Order from The United States District Court for the Eastern
District of Pennsylvania
APPENDIX D - Letter to the United States District Court for the Eastern District of
Pennsylvania from the Office of Dispute Resolution of Pennsylvania
APPENDIX E
APPENDIX F

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

Endrew F., A Minor, By and Through His Parents
and Next Friends, Joseph F. And Jennifer F., Petitioner
v. Douglas County School District Re-1

15-827

»

STATUTES AND RULES
The Individuals with Disabilities Education Act 20 U.S.C. § 1400 et sea.; 34 CFR
§300

OTHER

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment
below.
OPINIONS BELOW
[ x] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
to the petition and is
[] reported at___________________________________________
» or,
[ ] has been designated for publication but is not yet reported; or,
[x] is unpublished. (As much as this pro se Petitioner could ascertain.
Therefore, I am attaching it as Appendix “A”.)
The opinion of the United States district court appears at Appendix
to the petition and is
or,
[ ] reported at
(] has been designated for publication but is not yet reported; or,
[x] is unpublished. (As much as this pro se Petitioner could ascertain.
Therefore, I am attaching it as Appendix “C”.)
r 1 For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
.» or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

.> or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

JURISDICTION
[x ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was August 3, 2020.
[x ] No petition for rehearing was timely filed in my case.
L1A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:_____________
and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including_______
(date) on
(date)
in Application No.___ A
The jurisdiction of this Court is invoked under 28 U. S. C. §1254(l).
[ ] For cases from state courts:
The date on which the highest state court decided my case was________
A copy of that decision appears at Appendix________ .
[ ] A timely petition for rehearing was thereafter denied on the following
date’-

and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) in
to and including____
(date) on
Application No.___A
The jurisdiction of this Court is invoked under 28 U. S. C. §1257(a).

>

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The Individuals with Disabilities Education Act

*

♦

20 U.S.C. § 1400 et seg
34 CFR §300 Section 504

STATEMENT OF THE CASE
In 2008, Respondent, the West Chester Area School District, provided C.M.1
with an Individual Education Plan (now herein and throughout collectively referred
to as an “IEP”), pursuant to 34 CFR § 300 and its implementing regulations, due to
Respondent’s own diagnosis of C.M. with Asperger’s Syndrome. A developmental
*

pediatrician at The Children’s Hospital of Philadelphia (now herein and throughout
collectively referred to as “CHOP”), after evaluating C.M., concurred with
Respondent’s initial diagnosis of C.M. with Asperger’s Syndrome.

C.M. was an honor student throughout his 9th grade high school year of 201314, while receiving advanced scores that year, the first time taking the Keystone
standardized examinations mandated by the No Child Left Behind Act.
Furthermore, in C.M.’s 9th school year, CHOFs Center for Autism Research also
diagnosed C.M. with Social Anxiety Disorder. Upon receiving the written report
and recommendations of CHOFs Report on C.M., Petitioner promptly met with
C.M.’s IEP Team. Petitioner requested that Respondent’s IEP Team fully include
into C.M.’s IEP, the recommendations of CHOP in their report on how to efficiently
educate C.M. Respondent’s repeatedly refused, despite our frequent IEP meetings
to discuss the matter.

Although C.M. is no longer a minor, Petitioner will continue to refer to him
with his initials only, since Respondent has continued to do so throughout my legal
proceedings with them.

As a result of Respondent’s persistent resistance to our repeated requests for
changes to C.M.’s IEP, beginning in his 10th grade school year of 2014*15, C.M.
began to falter and was prescribed psycho-pharmacological medications, which
ultimately did not help him.

In March of 2016, Petitioner filed, on behalf of C.M., my first administrative
complaint with the Pennsylvania Office for Dispute Resolution (now herein and
throughout collectively referred to as the ODR) at (ODR File No. 17866/15*16).
However, Respondent’s attorneys were able to delay that administrative proceeding
from commencing until August of 2017. In the interim, C.M. continued his social,
academic and emotional decline due to the gross negligence of the Respondent.

Because of C.M.’s continued demise, Petitioner subsequently filed additional
administrative complaints with the ODR at ODR File #19245/16*17.’ ODR File
#19399/16*17 and ODR File #19562/17*18. The ODR’s presiding Hearing Officers
denied each of our requests for compensatory education and psychological expenses
for C.M.

In October of 2018, Petitioner filed our first appeal to the United States
District Court for the Eastern District of Pennsylvania on behalf of CM.2

2 Please see Civil Action No. 2:18-cv-04388-NIQA.

In February of 2019, Petitioner filed another appeal to the United States
District Court for the Eastern District of Pennsylvania on behalf of CM:

On November 12, 2019, Petitioner filed an Appeal with the United States
Court of Appeals for the Third Circuit. Please refer to the attached Appendix “B”.

In April of2020, the United States District Court for the Eastern District of
Pennsylvania Granted most of Respondent’s Motion to Dismiss. Please see
Petitioner’s attached Appendix “C”.

3 Please see Civil Action No. 2:19-cv-00648-NlQA

REASONS FOR GRANTING THE PETITION

As this Honorable Court will be able to ascertain from viewing the
aforementioned civil actions, Petitioner requested that the U.S.D.C. ED PA order
that the Respondent provide to that Court, the full and entire reproduced record of
those ODR proceedings, pursuant to (34 CFR § 300.516)3.1. Yet, as you can see
from the attached Appendix D, that Court did not receive those records until
October of2020. As a pro se Petitioner, I could not provide any burden of proof in
my briefs and filings in those matters, without my knowledge that the U.S.D.C. ED
had the records of the ODR Administrative Proceedings. Similarly, this pro se
Petitioner could not provide enough burden of proof to the United States Court of
Appeals for the Third Circuit (now herein and throughout referred to as “the Third
Circuit”).
As this Honorable Court can see from my attached Appendix D, the Third
Circuit is concurring with the Respondent’s assertions that Petitioner did not state
any claim. But the Administrative Reproduced Records prove opposite. This pro se
Petitioner did repeatedly state my claims. Those claims are evidenced in the
Administrative Record. Yet, since neither of the aforementioned Courts had any
knowledge of the voluminous administrative proceeding’s records, Petitioner could
not effectively provide any burden of proof to refute Respondent’s Motions.

CONCLUSION
Because of the aforementioned reasons, Petitioner, Karen Moynihan, hereby
requests that this Honorable Court consider my Motion for a Writ of Certiorari as
Encbrew F.exrel. Joseph F. v. Douglas Cty. Sch. Dist. RE-1 -137 S. Ct. L. Ed. 2d
335 (2017) has been determined by this Court, to.be a conclusion of law as it
pertains to The Individuals with*Disabilities Education Act (IDEA) and its
supporting regulations and statutes.
By way of further clarification, the Rules of the Supreme Court states that
the Court will consider a Petitioner’s Writ of Certiorari, pursuant to Rule 14. (a) (l),
and to Part III, Rule 10 © of The Rules of the United States Supreme Court:
©

“...a United States court of appeals has decided an important
question of federal law that has not been, but should be, settled
by this Court, or has decided an important federal question in a
way that conflicts with relevant decisions of this Court. “

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Karen Mnvnihan

Date: October 30, 2020

